No.

Ch

IN THE

Supreme Court, U.S.
FILED

1 5 2021

SUPREME COURT OF THE UNITED STA

OFFICE OF THE CLERK

LUCKNER PIERRE - PETITIONER
(Your Name)

VS.

ATT. GEN., STATE OF FLORIDA - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
U.S. COURT OF APPEAL FOR THE ELEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

Luckner Pierre
(Your Name)

1599 SW 187th Avenue
Miami, Florida, 33194 - 2801

(Phone Number)

RECEIVED
JUN 2 8 2021

i" ^ ,'i

QUESTION(S) PRESENTED
1.

Whether the U.S. Court of Appeal for the 11th Circuit denied the Petitioner

his Procedural Due Process Right and access to Court when it declined to grant
him C.O.A. so the denial decision of the U.S. District Court for the Southern
District could be reviewed on appeal?
2.

Whether the Petitioner as a mentally retarded person with barely a 3 rd grade

education, who speaks no English, was competent enough to knowingly and
intelligently waive his Miranda warning to remain silent and to have counsel
present during police interrogation without the assistance of a certified Creole
interpreter?
3.

Whether the Petitioner as a mentally retarded person who speaks no English

was competent enough to knowingly and intelligently waive his right to testify on
his own behalf without the assistance of a certified Creole interpreter?
4.

Whether the Petitioner as a mentally retarded person who speaks no English

but only Creole was competent enough to knowingly and intelligently waive his
right to a jury trial without the assistance of a certified Creole interpreter?
5.

Whether the Petitioner as a mentally retarded person who speaks no English

was competent enough to knowingly and intelligently reject a favorable plea
without the assistance of a certified Creole interpreter.

J

LIST OF PARTIES
[X]

All parties appear in the caption of the case on the cover page.

[ ]

All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of
this petition is as follows:

Secretary Department of Corrections
Attorney General, State of Florida

in

' )

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT
CONCLUSION

5-17
18

INDEX TO APPENDICES
APPENDIX A - The decision of the United States Court of Appeals
APPENDIX B - The decision of the United States District Court and the
findings and recommendation of the U.S. Magistrate Judge.
APPENDIX C - The United States Court of Appeals denied a timely filed
Petition for Rehearing/Reconsideration.

IV

* y

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Chacon v. State, 735 So. 2d 569, 570 (Fla. 2d DCA 1999).....

12

Coleman v. Thompson, 501 U.S. 772, 749-50 (11th Cir. 1991).

11

Cottle v. State, 733 So. 2d 963 (Fla. 1999)...............................

15

Lara v. State, 528 So. 2d 984, 984-85 (Fla. 3d DCA 1988)

12

Martinez v. Ryan, 566 U.S. 1, 16 (2012)

11

Miranda v. Arizona, 384 U.S. 436, 478-79 (1966).............

11

Norton v. State, 851 So. 2d 862, 863 (Fla. 2d DCA 2003).

12

Stancle v. State, 917 So. 2d 911, 913 (Fla. 4th DCA 2005)

11

V

■ i

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[X ]

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
to the petition and is
[ ] reported at
.; or,
[X] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B to
the petition and is
[ ] reported at
or,
[X] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[ ]

For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix B to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_______________
at Appendix___to the petition and is

appears

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1

. 9

JURISDICTION
[X]

For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 2nd, 2021.
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition rehearing was denied by the United States Court of
Appeals on the following date: May 11, 2021, and a copy of the order
denying rehearing appears at Appendix C.
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) on
(date)
in Application No.___A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).

[ ]

For cases from state courts:
The date on which the highest state court decided my case was
________________. A copy of that decision appears at Appendix__.
[ ] A timely petition rehearing was thereafter denied on the following
date: ___________________
, and a copy of the order denying
rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was
granted to and including
(date) on
(date)
in Application No.___A
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

> J

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1.

U.S. Constitution Amend 6, 14, right to an effective representation before,

during and after trial.
2.

U.S. Constitution Amendment 5, due process right to representation during

post conviction proceedings.
3.

U.S. Constitutional Procedural Due Process right to an appeal.

3

STATEMENT OF THE CASE
Defendant appealed his judgment and sentence to the United States
District Court for the Southern District of Florida whereas the Court adopted
the Magistrate Report and Recommendation in its entirety, denying the
Petition for Writ of Habeas Corpus Section § 2254 and also denied the
Petitioner’s C.O.A.
The Petitioner subsequently requested for C.O.A. from the U.S.
District Court for the Southern District of Florida to no avail. He further filed
for C.O.A. to the United States Court of Appeal, 11th Circuit. Such request
was denied. He then filed for Reconsideration to no avail.
This Petition for Certiorari is now before this Honorable Court in good
faith as a result of the above.

4

REASONS FOR GRANTING THE PETITION
The Petitioner was denied his constitutional right to due process and
a fair trial where as the decision to deny him the right to appellate review,
conflicting with other Appellate Courts on the same issue as indicated in
the questions presented for review and will be demonstrated below.
The Petitioner has demonstrated through the record in his Motion for
Reconsideration that the U.S. Court of Appeals has overlooked the facts in
this case that reasonable jurist would have found that the District Court’s
assessment of the constitutional claims debatable or wrong that the issues
deserve encouragement to proceed further. Denying the Petitioner his
constitutional right to be heard on appeal for redress resulted in a
fundamental miscarriage of justice.
With respect to Question Two presented for review, the record clearly
indicates that the Petitioner’s Miranda Warning was substantially violated. It
also indicates that the police took advantage of his mental capacity like a
five year old child and had him talk without a proper Miranda Warning as
revealed in police translation.
To be noted, the detective who did the Creole translation was not a
certified Creole interpreter. He had to translate the words by using other
words that were not understood by the Petitioner, which conveyed a
different meaning contrary to what it was designed to be. This defect
caused the Petitioner to be unable to comprehend the warning, coupled
with his mental deficiency and consequently he involuntarily signed the
Miranda Warning waiver form and talked by incriminating himself under

5

duress by fear and the threat exerted upon himself by Detective Desert,
that he understood.
The following is the correct and exact translation from the Miranda
Warning that was administered to Mr. Pierre by a certified Creole
interpreter.
MIRANDA WARNING STANDARD FORMAT WITH
THE CREOLE ACCURATE TRANSLATION
I am required to warn you before you make any statement that
you have the following constitutional rights.
Creole translation: Mwen fet pou’m di ou veye zo ou, avan ou
pale, ke ou genyen dwa constitution ba ou ke mwen pwal di ou.

1)

You have the right to remain silent and not answer any
questions.
Creole translation: Ou gen dwa pou’w pa pale e pou’w pa
repon’n pies kesyon.

2)

Any statement you make must be freely and voluntarily given.
Creole translation: Tout sa ou di fok pa genyen pies moun ki di
ou sa pou ou di.

3)

You have the right to presence and representation of a lawyer of
your choice before you make any statement and during any
questioning.
Creole translation: Ou genyen yon dwa pou’w genyen yon
avoka la avek ou. Ou genyen yon dwa pou’w chwazi avoka ke
ou vie ya, pou ki la avek ou avan ke ou Komanse pale pandan ke
ou Ap pale tou.

4)

If you cannot afford a lawyer, you are entitled to the presence
and representation of a Court appointed lawyer before you make
any statement and during questioning.
Creole translation: Si ou pa kapab peye yon avoka, ou genyen
dwa pou tribunal peye yon avoka pou ou, pou ki la avek ou avan
ke ou deside pou ou repon’n kesyon ke yo ap pose ou.

6

5)

If at any time during the interview you do not wish to answer any
questions, you are privileged to remain silent.
Creole translation: Si pandan ke yo ap poze ou kesyon, e ou pa
ta renmen repon’n kesyon ankd, you genyen dwa pou ou pa di
anyen ankd.

6)

I can make no threats or promises to induce you to make a
statement. This must be of your own free will.
Creole translation: Mwen pa ka fe ou pe, e mwen pa kap ofri ou
anyen pou ankouraje ou pale. Se ou vie pale pou kont ou pou ou
pale.

7)

Any statement can be and will be used against you in a court of
law.
Creole translation: Tout sa ke ou di, yo ka utilize li kont oumen’m
e yo pwal utilize’! kont ou pou yo kondane ou nan tribunal.
If the warning was accurately translated like in the above, the

Defendant would have never waived that fundamental right to talk without
the presence of an attorney. Now comparing the verbatim translation of
what Detective Desert told the Defendant in Creole with the English version
of the Standard Miranda warning above.
Interpreter: Mwen se depite, Patrick Desert. Mwen pral li tout yo ki
antre yen ave ou. Ou gen dwa pou rete an sil ans, ok ou Pa bezwen
reponn oken kesyon. Ou Konprann sa?
English translation: I am Deputy Patrick Desert. I am going to read all
they that enter with you. You have right to say in silent, ok you don’t
need to answer any question. You understand that?
Interpreter: Ou konprann sa m di ou la? Si ou pa ka li, si out to gen
paske ou konnen tou bagay avoka fe ou ka peye. Pandan nap pale la
gen tout privilej pou Ian ou kab pou mwen pa bezwen pale anko ou we

7

« ►

sa m di ou fose. Epi pandan nap pale mwen pa ka fundamental error
ou okenn pwomes.
English translation: You understand what I am saying? If you can’t do
it, if you had because you know everything a lawyer you have to pay.
While I am speaking have all privileges that in you can for me don’t
need talk again you we what I am saying to you force. Again while I
am speaking I can’t do you any promises.
Interpreter: Tout sa mwen sot di yo nan sa, mwen pral fe ou siyen ni.
Siyati ou vie di wi mwen te li ou yo e wi ou konprann yo. Ou konprann
sa mwen di ou la?
English translation: Evrything that I just told you, I am going to make
you sign it. Your signature means yes I read them to you and yes you
understand them.
As it can be seen, the translation from the record indicates that there
was a miscommunication in the translation of the Miranda Warning from
Detective Patrick Desert, to the Defendant. It was like day and night where
the translation of the Miranda Warning from the detective was very difficult
to be understood even by an English speaking person.
Before trial, defense counsel was well aware of the content of the
Defendant’s interview to the police in which the Defendant admitted that he
had sexual intercourse with the victim. He further gave details about each
encounter and still, defense counsel made no effort to secure her own
interpreter.
The

record

does

not

reflect whether defense counsel

ever

investigated5the background of the Defendant, his upbringing and his level

8

of education to ascertain whether he was competent enough to waive his
right to remain silent.
Had she done so, she would have discovered that the Haitian people
in general are afraid of the police, because of their past experience under a
brutal government in Haiti. This alone would have explained why he
volunteered to tell on himself. Additionally, because the interview was
poorly conducted, it can be seen that the way Detective Desert
administered the Miranda Warning, it placed the Defendant in fear
particularly where Detective Desert toldhim that “I am going to make you
sign it.”

Following that statement, the Defendant felt compelled to sign the
form and began telling on himself like a child and answered yes to every
following questions. He believed if he did not sign and told on himself they
will kill him.
Furthermore, had defense counsel investigated his level of education
she would have discovered that the Defendant is mentally retarded with
barely a third grade education and with a mental capacity of a five year old
child. Then defense counsel would have ordered a psychological
evaluation coupled with an IQ test.
A very low IQ result along with the psychologist’s report indicating

9

that he is indeed mentally retarded, it would have been ground for defense
counsel to file a Motion to Suppress his confession, because his mental
retardation would have made him incompetent to waive his right to remain
silent. That Motion would have been granted and changed the outcome.
Defense counsel never fully investigated the content of the translation
of the Miranda Warning whether it was accurate or properly administered.
Had she done so, she would have discovered that the warning was done in
violation of the Defendant’s constitutional right as indicated by Detective
Desert’s inaccurate translation.
Counsel’s inaction of failing to file a Motion to Suppress and or obtain
a suppression hearing fell well below the standard of the professional
norms in effective representation, which deprived the Defendant of a right
to a fair trial.
A competent counsel would not have failed to suppress the
Defendant’s interview. Instead, a proficient attorney would have recognized
the Miranda violation through the inconsistencies in the translation and
insured that a suppression hearing was held. Prejudice to the Defendant is
therefore presumed.
The U.S. Court of Appeals in its review of the record may have
overlooked the facts stated above supporting the Petitioner’s contention

10

that counsel was indeed ineffective.
Here, the District Court in its review of the full transcript of the
interview as ground to deny relief, failed to indicate the inaccuracy of the
Creole translation of the Miranda Warning. Had the translation been
accurate, the Petitioner would have never agreed to waive his right to
remain silent, to have an attorney present nor to sign any waiver form. The
District Judge mistakenly focused only on the Petitioner’s answers to the
police, but not on the Miranda Warning translation which was the focus or
the central point of the issue.
The Petitioner as a pro se litigant understood that once his 3.850
Motion for post Conviction Relief was denied, and by giving notice to the
trial Court that he is appealing the denial of the issues presented, it was
sufficient for the denial of all the available State Court remedies on all the
issues. Therefore, his Motion was supposed to be construed liberally as an
unskilled person in the law. To deny him the opportunity for this issue to be
heard on appeal, a fundamental miscarriage of justice would result.
Martinez v. Ryan, 566 U.S. 1,16 (2012); Coleman v. Thompson, 501 U.S.
772, 749-50 (11th Cir. 1991); Miranda v. Arizona, 384 U.S. 436, 478-79
(1966); Stancle v. State, 917 So. 2d 911, 913 (Fla. 4th DCA2005).
With respect to Question Three, the record does not indicate that

li

defense counsel ever told the Appellant that he has the right to testify on
his own behalf. However, the record indicates that the Petitioner indeed
was misled by defense counsel when she falsely told the Petitioner that
“the only way for him to be able to testify on his own behalf was if he opted
for a bench trial.” That decision not to testify was predicated on the above
misinformation told to him by defense counsel.
Had he known he has a fundamental right to testify in front of a jury,
he would not have waived such a right. Chacon v. State, 735 So. 2d 569,
570 (Fla. 2d DCA 1999); Norton v. State, 851 So. 2d 862, 863 (Fla. 2d DCA
2003); Lara v. State, 528 So. 2d 984, 984-85 (Fla. 3d DCA 1988).
The record also indicates that the Amended Information was
substantial, making it more difficult for defense counsel to properly defend
his client which would have required a change in defense strategy. It would
have also required by due process to have a new waiver signed and be
rearranged and repled.
The record also does not reflect that the Petitioner was coloquied by
the Judge on that subject to make sure that the decision was voluntarily
and intelligently made. Therefore, it was unreasonable for defense counsel
to have allowed the Petitioner to waive his fundamental right to testify on
his own behalf.

12

The U.S. Court of Appeals may have overlooked the above facts
when the decision was made to deny the Petitioner the right to appeal the
District Court’s erroneous denial resulted in a fundamental miscarriage of
justice. This Honorable U.S. Supreme Court should therefore accept
jurisdiction to correct such gross miscarriage of justice.
With respect to Question Four, it is unreasonable for the U.S. Court of
Appeals to conclude that the trial Court’s colloquy confirms that Mr. Pierre
knowingly, intelligently and voluntarily waived his right to a jury trial
whereas a review of the colloquy clearly demonstrates that it was
inadequately conducted for the following reasons:
Trial Judge never inquired about the Petitioner’s level of education to
ascertain whether he was competent enough to understand what a jury trial
is to waive it. Had the Judge done so, he would have discovered that Mr.
Pierre is mentally retarded, having a severe cognitive deficiency with barely
a third grade education. Someone with such a low level of education is
deemed

incompetent to voluntarily waive such fundamental

right.

Therefore, it was unreasonable for the Judge to have neglected to make
sure of such an important inquiry, and for defense counsel to remain mute,
not bringing this fact to the Judge’s attention was not reasonable.
Furthermore, the Court should have ordered a mental evaluation as

13

well as an IQ examination before allowing Mr. Pierre to waive or accept his
waiver. In the absence of the above, the waiver could not be deemed
voluntarily made. Additionally, at no time during the entire proceeding,
defense counsel ever made an inquiry as to Mr. Pierre’s level of education
to ascertain whether he was able to comprehend the process, the
difference between a jury trial and a bench trial, the advantages and
disadvantages between the two. Certainly, a mentally retarded person like
Mr. Pierre can’t comprehend that and to be noted, he is not an English
speaker, does not understand it, can’t read nor write it.
Without considering the above facts, it is hoed to comprehend where
the U.S. Court of Appeals derived its conclusion from. That decision by the
Court to deny the Petitioner the right to appeal is in conflict with other U.S.
Court of Appeals with respect to the issue that a mentally retarded is
deemed incompetent to knowingly, voluntarily, and intelligently waive any
right. Such issue has already been decided and the U.S. Court of Appeals,
11th Circuit failed to comply with the Stare Decisis Doctrine, thus created a
new conflict with such prior ruling, and needs to be rectified by this
Honorable U.S. Supreme Court, because, it was predicated on a deficient
act of counsel, and but for that deficient act of counsel he would not have
waived his right to a jury trial. The record does not reflect that the Petitioner

14

was ever asked if he wanted a bench trial or a trial by a jury of his peers.
With respect to Question Five, during the course of the trial, the
prosecutor repeatedly made reference to the plea offer of seventeen years
that the Petitioner had rejected. However, the Petitioner initially stated that
he would accept the offer, but during the Judge’s colloquy of Petitioner, he
changed his mind and turned down the offer and the Judge set the case for
trial.
In light of Cottle v. State, 733 So. 2d 963 (Fla. 1999), failure to
properly convey a plea offer can constitute ineffective assistance of
counsel.
Here counsel was obligated to explain to the Petitioner the pros and
Cons of going to trial, the strength and weakness of the State’s case
against him as well as how much time he would face in the event he is
found guilty. Had defense counsel explained to him how strong the State’s
case was against him and strongly advised him to accept the plea because
she could not guaranteed him the case can be won, the Petitioner would
have never changed his mind to proceed to trial.
Counsel, therefore, failed to do the above, a fact that the U.S. Court
of Appeals has overlooked. As a consequence of counsel’s ineffectiveness,
the Petitioner is serving 8 more years than the 17 years that was offered to

15

■ >

him, a total of 47% more.
Furthermore, the Judge’s colloquy was inadequately conducted due
to the fact that the Court never made an inquiry as to the Petitioner’s
voluntariness of rejecting the plea. The Judge was required to inquire as to
the Petitioner’s cognitive development whether he was able to comprehend
basic intellectual communication. The Judge should have ordered an IQ
examination coupled with a psychological evaluation to ascertain whether
he was competent enough to making such critical decision.
The Petitioner with barely a third grade education is considered
illiterate. His communication clearly demonstrates that he is mentally
retarded. By not ordering a psychological evaluation on the Petitioner
before accepting his decision to reject the plea denied him due process of
law. The Petitioner’s constitutional rights were substantially violated as
indicated by the record.
Counsel was ineffective for failing to object to
the trial Court’s misadvising the Petitioner about
having to plea guilty in order to accept the plea
which led him to reject the plea.
Trial Court did allow the Petitioner to file an Amended Motion on this
issue, however before the Petitioner could amend the issue, the State filed
a judicial notice where the Court accepted the State’s judicial notice as an
amended to the State’s Response and subsequently summarily denied the

16

.>

CONCLUSION
The petition for writ of certiorari should be granted.

Respectfully submitted,
V~XJSO-iJ-L s-

-A t ± r^j/~yv\ Q Jt

Pierre Luckner, pro se
DC# M41601
Everglades Correctional Institution
1599 SW 187th Ave.
Miami, FI. 33194-2801
Date:

^ - /j5

2021

18

